OMNI Community Credit Union
P.O. Box 1537
Battle Creek, MI 49016
(269) 441-1400 ▲ (866) OMNI-WOW

CREDIT LINE ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTHIN-LENDING DISCLOSURE STATEMENTS, PLATINUM CREDIT CARD AND PLATINUM REWARDS CREDIT
CARD AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR PLATINUM
CREDIT CARD AND/OR PLATINUM REWARDS CREDIT CARD, AND/OR ANY OTHER ACCOUNT ACCESS
DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF
ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

Platinum Credit Card:

8.99 - 17.99_______
_______%

Platinum Rewards Credit Card:

9.99 - 15.99_______
_______%

Annual Percentage Rate (APR)
For Balance Transfers

- 17.99
Platinum Credit Card: 8.99
_______%

Annual Percentage Rate (APR)
For Cash Advances

- 17.99
Platinum Credit Card: 8.99
_______%

- 15.99
Platinum Rewards Credit Card: 9.99
_______%

- 15.99
Platinum Rewards Credit Card: 9.99
_______%

Cash Reserve Line of Credit: _______%
Penalty APR And When it
Applies

18.00%
This APR may be applied to Your credit card accessible Feature Category if:
1) You make a late payment.
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason, the
Penalty APR may be applied indefinitely unless 6 consecutive payments are received on
or before the due date during the six-month period following such increase.

Paying Interest

For credit card accessible Feature Categories, We will not charge You interest on purchases
if You pay Your entire balance owed each month within 25 days of Your statement closing
date. For all Feature Categories, We will begin charging interest on cash advances and
balance transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees


Foreign Transaction

Penalty Fees
 Returned Check Charge
 Over-the-Credit Limit
 Late Payment

For Credit Cards, 1.00% of each foreign currency transaction in U.S. dollars.
For Credit Cards, 1.00% of each U.S. Dollar transaction that occurs in a foreign country.

For Credit Cards, up to $20.00
For Credit Cards, up to $25.00
For Credit Cards, up to $25.00
For Cash Reserve Line of Credit, the greater of 5.00% of the payment due or $15.00

How We Will Calculate Your Balance: For Cash Reserve Line of Credit, We use a method called "daily balance.” For Platinum
and Platinum Rewards Credit Cards, We use a method called "average daily balance (including new purchases).” See Your Account
Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean OMNI COMMUNITY CREDIT UNION. The words "You" and "Your" mean each person accepting
this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card," "Credit Card," and “Credit Cards” mean any Platinum Credit Card or Platinum
Rewards Credit Card issued to You by Us and any duplicates or renewals. “Convenience Checks” mean the special Account access devices that We may provide for Your use
from time to time.
Copyright Oak Tree Business Systems, Inc., 2006-2018. All Rights Reserved.

Page 1 of 4

OTBS 016 Web OMNI (3/18)
Rev. (3/18)

You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein constitute
Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic requests, advance
request forms, vouchers, checks, charge slips, Convenience Checks, Check Cards, ATM Cards, Credit Cards, wire transfers, direct transfers and/or wire transfers to specific
payees identified by You, direct transfers to Your Share/Share Draft or other Credit Union account and the like. Regardless of the means by which any advance is made, You
promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your
Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Cash Reserve Line of Credit (including Overdraft Protection), Platinum Credit Card
and Platinum Rewards Credit Card.

Account
Feature Categories

Cash Reserve Line of Credit

Daily
Periodic
Rate

Monthly
Periodic
Rate

_________

ANNUAL
PERCENTAGE
RATE
_________

Platinum Credit Card

0.749%
- 1.499%
_________

8.99% - 17.99%
_________

Platinum Rewards Credit Card

_________
0.833%
- 1.333%

_________
9.99% - 15.99%

ADVANCES. Whenever You request a transaction, We may require You to prove Your
identity. Advances made on Your Account will be processed according to the
instructions You give Us (such as by wire transfer, direct transfer to Your Credit Union
account or by other such means) and You authorize Us to do this, or We may draw a
draft or check made payable to You and mail it to You. When the amount advanced
appears on a subsequent statement, that will be conclusive evidence of Your advance
request unless You notify Us that You disagree with any such item appearing on Your
periodic statement according to the provision of this Agreement "Your Billing Rights:
Keep this Document for Future Use."

of the Minimum Monthly Payment will first be applied to the balance bearing the
highest rate of interest, and then to each successive balance bearing the next highest
rate of interest, until the payment is depleted.

SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh Account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We may
set-off any mutual indebtedness.

Cash Reserve Line of Credit Minimum Monthly Contractual Payments will be
established and fixed on the first day of the calendar month immediately following
each advance at an amount equal to 3.00% of Your then outstanding balance,
subject to the lesser of $25.00 or Your balance.

OTHER SECURITY. Collateral (other than household goods or any dwelling) given
as security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future if that status is reflected in the
"Truth-in-Lending Disclosure" in any particular Agreement evidencing such debt.

Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.

Platinum Credit Card and Platinum Rewards Credit Card Minimum Contractual
Payments will be an amount equal to 2.00% of Your new unpaid Platinum Credit
Card or Platinum Rewards Credit Card balance at the end of each billing cycle,
subject to the lesser of $25.00 or Your balance, plus any portion of the Minimum
Payments shown on prior statement(s) which remains unpaid, plus any amount that
exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your Share or Share Draft Account.

LIEN ON SHARES. If You have been issued an ATM or debit card, You grant
and consent to a lien on Your shares with Us (except for IRA and Keogh
accounts) and any dividends due or to become due to You from Us to the
extent You owe on any unpaid Cash Reserve Line of Credit balance created
through the use of Your ATM or debit card.

LATE CHARGE – CASH RESERVE LINE OF CREDIT. For Cash Reserve Line of
Credit, if Your payment is 15 or more days past due, You will be charged the greater
of 5.00% of the payment due or $15.00.

LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Feature Category for which You are approved. Unless You are in default, any Credit
Limits established for You will generally be self-replenishing as You make payments.

FINANCE CHARGES – CASH RESERVE LINE OF CREDIT. For Cash Reserve Line
of Credit, a Finance Charge will be assessed on any unpaid principal balance for
each Feature Category of Your Account for the period such balance is outstanding.
Balances change each time advances are made, payments are made or credits
given under any Feature Category. The Finance Charge begins to accrue on the
date of each advance and there is no grace period.

You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any
such Account access device(s) will be mailed only to the primary Borrower at the
address that We have on file for You. We may refuse to follow any instructions which
run counter to this provision.
MINIMUM MONTHLY CONTRACTUAL PAYMENTS (PAYMENT SCHEDULE).
Though You need only pay the Minimum Monthly Contractual Payments, You
understand that You have the right to repay at any time without penalty. You also
understand that You will only be charged periodic Finance Charges to the date You
repay Your entire balance. You may make larger payments without penalty. Any partial
payment or prepayment will not delay Your next scheduled payment. All payments to
Us must be in lawful money of the United States. For Cash Reserve Line of Credit,
payments will be applied first to any Late Charges owing, then to the Finance Charge
due, then to the outstanding principal balance.
As permitted by law, Platinum Credit Card and Platinum Rewards Credit Card
payments will be applied in an order of Our choosing and any amounts paid in excess
Copyright Oak Tree Business Systems, Inc., 2006-2018. All Rights Reserved.

HOW TO DETERMINE THE FINANCE CHARGE – CASH RESERVE LINE OF
CREDIT. For Cash Reserve Line of Credit, the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle being
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the
balance each day after payments, credits, and unpaid Finance Charges to that
balance have been subtracted and any new advances, insurance premiums or other
charges have been added to Your unpaid balance. These daily Finance Charges are
then added together and the sum is the amount of the Finance Charge owed for the
Feature Category being accounted for. The total Finance Charge You owe on Your
Account for each billing cycle is the sum of all the Finance Charges due for all
applicable Feature Categories.
FINANCE CHARGES - PLATINUM CREDIT CARD AND PLATINUM REWARDS
CREDIT CARD. In the case of any transactions under Your Platinum Credit Card or
Platinum Rewards Credit Card Feature Categories, the balances subject to the periodic
Finance Charge are the average daily transaction balances outstanding during the
month (including new transactions). To get the average daily balance, We take the
beginning balance of Your Account each day, add any new purchases, cash advances,
insurance premiums, debit adjustments or other charges and subtract any payments,
credits and unpaid Finance Charges. This gives Us the daily balance. Then, We add
up all the daily balances for the billing cycle and divide them by the number of days

Page 2 of 4

OTBS 016 Web OMNI (3/18)
Rev. (3/18)

in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying
the average daily balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Cash advances and
balance transfers are always subject to a Finance Charge from the later of the date
they are posted to Your Account or from the first day of the billing cycle in which the
cash advance is posted to Your Account.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $100.00 (or in
such increments as We may from time to time determine) to Your share draft account
by an advance on Your Cash Reserve Line of Credit Feature Category, subject to
this provision, to clear any Overdraft on Your share draft account. Whether or not
such transfers occur will be controlled by this Agreement. In any event, You hold Us
harmless for any and all liability which might otherwise arise if the transfer does not
occur. Overdraft protection automatically ceases if this Agreement is ever cancelled
or terminated or Your Account is in default.

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act." and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this Agreement
or at a later date becomes an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device;
or by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.

PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your
last statement. We will mail You a statement each month in which there is a debit or
credit balance or when a Finance Charge is imposed. We need not send You a
statement if We feel Your Account is uncollectible or if We have started collection
proceedings against You because You defaulted. EACH STATEMENT IS DEEMED
TO BE A CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A
BILLING ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.

TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in default.
You will, in any case, remain liable to pay any unpaid balances according to the terms
of Your Account.

OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks
have been reported lost or stolen; (3) Your Account has been cancelled or has
expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting loss
or liability.

SPECIFIC TERMS APPLICABLE TO YOUR
PLATINUM CREDIT CARD AND
PLATINUM REWARDS CREDIT CARD

DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should
be filed against You or any attachment or garnishment should be issued against
any of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should,
in good faith, believe Your ability to repay Your indebtedness hereunder is or soon
will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection
and actual attorneys’ fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement
if We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our
rights under this Agreement. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force
and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.
Copyright Oak Tree Business Systems, Inc., 2006-2018. All Rights Reserved.

GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Michigan except to the extent that such laws are inconsistent with controlling
federal law.

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
OWNERSHIP. Your Card remains Our property and may be canceled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (269) 441-6222. You may
also write to Us at the address shown in this Agreement. In any case, Your liability
will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the Cards
or Convenience Checks, or electronic terminals to honor the Cards or complete a Card
withdrawal, or for their retention of the Cards or Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by MasterCard from the
range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate MasterCard itself receives; or
(b) the government-mandated rate in effect for the applicable central processing
date. In each instance, You will be charged a fee in an amount equal to 1.00% of the
settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advance, credit or other slips cannot be returned with the statement.

Page 3 of 4

OTBS 016 Web OMNI (3/18)
Rev. (3/18)

RETURNED CHECK CHARGE. You will be charged the lesser of $20.00 or the
required minimum payment amount for the returned payment for any check (or other
negotiable instrument used for payment) which is returned unpaid.

When We receive Your letter, We must do two things:

LATE CHARGE. If Your payment is one or more days past due, You will be charged
the lesser of: (a) the amount of the minimum payment due; or (b) $25.00.

2)

OVER-THE-CREDIT LIMIT FEE. If You have affirmatively consented to allow Us to
pay a transaction that would exceed Your Credit Limit and We have acknowledged
Your consent as required by applicable law, subject to any limitations imposed by
applicable law, You will be charged a fee for each billing cycle during which You
exceed Your Credit Limit. The fee will be an amount equal to the lesser of: (a) $25.00;
or (b) the amount by which You have exceeded Your Credit Limit.

While We investigate whether or not there has been an error:

PENALTY RATE- PLATINUM CREDIT CARD AND PLATINUM REWARDS
CREDIT CARD. If Your credit card accessible Feature Category is more than 60
days past due, subject to applicable law, the Monthly Periodic Rate applicable to
Your entire balance of transactions existing at that time and in the future will increase
to 1.50% (corresponding ANNUAL PERCENTAGE RATE 18.00%).
During the six month period following the effective date of the increase, upon receipt
of the first six consecutive required minimum periodic payments when due, the rate
will be returned to the standard rate that would have otherwise been in effect.

1)






Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give us the following information:





Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.




Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do We
are not required to investigate any potential errors and You may have to pay the amount
in question.
What Will Happen After We Receive Your Letter

Copyright Oak Tree Business Systems, Inc., 2006-2018. All Rights Reserved.

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You as
delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to
Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill.
We must tell You the name of anyone to whom we reported You as delinquent, and
We must let those organizations know when the matter has been settled between
Us. If We do not follow all of the rules above, You do not have to pay the first $50.00
of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1)

2)

You must contact Us:




We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:

LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
Cards or Convenience Checks, You will immediately call Us at (269) 441-6222.
You may also write to Us at the address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your Account.
If Your credits and payments exceed what You owe Us, We will hold and apply this
credit against future purchases and cash advances, or if it is $1.00 or more refund it on
Your written request or automatically deposit it to Your Share Account after six months.

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

3)

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more
than $50.00. (Note: Neither of these are necessary if Your purchase was based
on an advertisement We mailed to You, or if We own the company that sold
You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At
that point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 4 of 4

OTBS 016 Web OMNI (3/18)
Rev. (3/18)

